Supreme'Court, “U.S.
FILED

NOV 1 8 2020
OFFICE OF THE CLERK

IN THE
SUPREME COURT OF THE UNITED STATES

ISRAEL WASHINGTON,
Petitioner,
v.
UNITED STATES OF AMERICA,
Respondent.

On Petition for Writ of Certiorari to the
United States Court of Appeals for the Ninth Circuit

PETITION FOR WRIT OF CERTIORARI

Respectfully submitted,
Israel Washington (PRO SE)
Reg. No. 70125-097
U.S. Penitentiary
P.O. BOX 1000
Leavenworth, KS 66048

QUESTIONS PRESENTED
[1]

WHETHER CERTIORARI SHOULD BE GRANTED CONCERNING THE
DISTRICT COURT'S APPLICATION OF THE ABUSE OF
DISCRETION STANDARD IN RELATION TO THE DENIAL OF A
REQUEST FOR THE READBACK OF TESTIMONY? WHEN THE
COURT ADOPTS A POLICY OF DISALLOWING READBACKS, THE
COURT HAS ABUSED ITS DISCRETION BY FAILING TO EXERCISE
IT.

(

(i)

TABLE OF CONTENTS
QUESTION PRESENTED

i

TABLE OF CONTENTS

ii
iii

TABLE OF AUTHORITIES
PETITION FOR A WRIT OF CERTIORARI

1

OPINION BELOW

1

JURISDICTION

1

STATEMENT OF THE CASE

1

REASONS FOR GRANTING THE WRIT

2

Certiorari should be Granted concerning the Court's
Application of the Abuse of Discretion Standard to
the Denial of the READBACK REQUEST...................................

3

(i)

Failure to Exercise Distriction

4

(ii)

The Court's Reasoning on the Unanimity Issue
Heightens the Importance of Paul Mack's Testimony,
and hence the need for a READBACK...................................

(A) .

.8
9

CONCLUSION

(ii)

TABLE OF *"AUTHORITIES
--- --.vll

)

MORGAN v. UNITED STATES DIST. COURT (In Re Morgan),

5

PLAINTIFF B v. FRANCIS, 631 F.3d 1310 (11th Gir. 2011)

5

UNITED,STATES v. CURTIN, 489 F.3d 935 (9th Cir. 2007)

4

UNITED STATES v. HINKSON, 585 F.3d 1247 (9th Cir. 2009)

4

UNITED STATES v. RICHARD, 504 F.3d 1109 (9th Cir. 2007)

4

UNITED STATES v. WASHINGTON, No. 17-10141 (9th Cir. 2020)

1

UNITED STATES V. MILLER, 722 F.3d 562 (9t.h Cir. 1983)

6

(iii)

1 of 9
PETITION FOR A WRIT OF CERTIORARI
Petitioner herein, respectfully petitions for a writ of
certiorari to review the judgment of the United States Court of
Appeals for the Ninth Circuit.

OPINION BELOW
The decision of the United States Court of Appeals for the
Ninth Circuit is reported at UNITED STATES v. ISRAEL WASHINGTON,
No. 17-10141 (9th Cir. Mar. 17, 2020).

JURISDICTION
The court of appeals issued its decision on Maxell 17,
2020.

App. la.

Thereafter, Petitioner filed a Petition for

Rehearing and Rehearing En Banc, and the same was denied on
June 2J, 2020.

On March 19, 2020 this Honorable Court extended

the deadline to file petitions for writs of certiorari in all
cases due on or after that date to 150 days from the date of
the lower court judgment —in this case, that is November
2020.

,

Hence, this Court has jurisdiction under 28 U.S.C.

§ 1254 (1) .

STATEMENT OF THE CASE
Israel Washington (hereinafter "Petitioner"), appealed his
conviction and sentence for two conspiracies to distribute
controlled substance and related crimes.

During his Direct

Appeal, Petitioner argued:
(1)

That the district court had committed plain error by
not giving a specific unanimity instruction. Evidence
supporting the count one conspiracy tended to show

2 of 9
multiple conspiracies, rather than an overarching
conspiracy, requiring the jury to determine which
insiders were part of the count one conspiracy.
Without a unanimity instruction, different jurors
might have reached different conclusions as to which
conduct supported count one.
(2)

The district court improperly denied the jury's
request for readback of Paul Mack's trial testimony
as "too cumbersome." There was no risk of undue
emphasis on Mr. Mark's testimony. Rather, readback
of his testimony would have CLARIFYING because he
testified at the beginning of a trial spanning two
weeks, his testimony provided a poor timeline of
events, and the jury may have had difficulty
understanding his answers.

(3)

The district court erred in its application of the
United States Sentencing Guidelines. First, the
district court improperly applied a 4-level increase
in offense level of Mr. Washington's leadership because
Mr. Washington did not direct or control the other
participants in the conspiracy. Culpability itself
does not warrant the application of the leadership
enhancement. The application.of both the leadership
and witness intimidation enhancements was based on
unreliable hearsay of unknown witnesses. Finally,
two criminal history points were erroneously imposed
for Mr. Washington's 1992 conviction because it is
outside of the 15-year window contemplated by the
Guidelines.

However, the Honorable Ninth Circuit Court of Appeals
affirmed Petitioner's Direct Appeal and Petitioner seeks that
his Writ of Certiorari be Granted for the following reasons:

REASONS FOR GRANTING THE WRIT
[1]

CERTIORARI SHOULD BE GRANTED CONCERNING THE DISTRICT
COURT'S APPLICATION OF THE ABUSE OF DISCRETION STANDARD
IN RELATION TO THE DENIAL OF A REQUEST FOR THE
READBACK OF TESTIMONY. WHEN THE COURT ADOPTS A POLICY
OF DISALLOWING READBACKS, THE COURT HAS ABUSED ITS
DISCRETION BY FAILING TO EXERCISE IT.

The decision whether to grant or deny a jury's request

3 of 9
for a readback is a decision of vital importance to the trial
process.

There is no dispute that in reviewing the district

court's decision to deny a readback request, the abuse of
discretion standard applies as the district court is best
positioned to make the decision based upon its evaluation of the
circumstances of the case,

but to secure a full and fair review

of the district court's action, the abuse of discretion standard
must be applied in harmony with applicable precedent addressing
what it means for a court to exercise its discretion,

The abuse of

discretion standard should not be applied in a manner that would
insulate from reviewing a district court's pretextual
justification for denying a readback.

Along those same lines,

a district court's decision should not be upheld on review where
it fails to actually consider and weigh-the various factors for
and against the granting of a readback request,

Under both

circumstances a legal abuse of discretion has occurred.

The

manner in which the abuse of discretion was applied in the
March 17, 2020 memorandum did not consider that the failure to
actually exercise discretion, and the failure to consider the
factors affecting the courts discretion, is itself an abuse of
discretion.

Hence, Certiorari should be Granted because the

court applied a definition of abuse of discretion applicable
when a district court denies a new trial motion.

(A) .

Certiorari should be Granted concerning the Court's
Application of the Abuse of Discretion Standard to
the Denial of the Readback Request.

The Ninth Circuit Court's Memorandum states that
Mr..Washington "makes fair arguments as to why a readback may

4 of 9
have been reasonable had one occurred."

The

Memorandum, p.2.

court nonetheless concludes, "we cannot say the district court's
decision to deny the readback was "illogical, implausible, or
without support in inferences that may be drawn from facts in the
record," UNITED STATES v. HINKSON, 585 F.3d 1247, 1251 (9th Cir.
2009)

(en banc)."

Memorandum, pp. 2-3.

Hence, Certiorari should

be granted concerning the District Court's application of the
abuse of discretion standard, and the reliance upon HINKSON.

(i)

Failure to Exercise Discretion:

FIRST, the court failed to actually exercise its discretion,
instead following a blanket rule in denying the rehearing request.
One way a court is deemed to have legally abused its discretion
involves error in the procedure and process of making the
discretionary decision,

In the context of evaluating whether

to grant a readbook request, the court must base its decision
UNITED

upon the particular facts and circumstances of the case.
STATES v. RICHARD, 504 F.3d 1109, 1113 (9th Cir. 2007).

Trial.courts charged with exercising discretion by way of
a balancing or weighing of factors must properly exercise
discretion in order to be deemed not to have abused it.

This

form of abuse of discretion is represented in UNITED STATES v.
CURTIN, 489 F.3d 935, 957 (9th Cir. 2007).

In CURTIN, the

district court was called upon to exercise its Rule 403
discretion concerning inflammatory stories, however, the court
did not review and evaluate ALL of the stories.

In finding an

abuse of discretion, the court writes that "a district court

5 of 9
making a Rule 403 decision must know precisely what is in the
stories in order for its weighing discretion to be properly
Thus, CURTIN

exercised and entitled to deference on appeal."

stands for the proposition that a legal abuse of discretion can
arise if there is an error in the balancing and weighing of
factors, such as not reviewing all the evidence sought to be
excluded.

A related type of discretionary abuse occurs when the court
fails to actually undertake a balancing and weighing, and hence
engage in its discretionary process as required by law.

This

occurs when a district court adopts a blanket outcome
determinative policy, in a specific circumstance,

An example of

this type of abuse of discretion occurred in MORGAN v. UNITED
STATES DISTRICT COURT (In Re MORGAN), 506 F.3d 705, 711-712
(9th Cir. 2007) , holding that a court abuses its discretion by
adopting a blanket policy of rejecting specific sentence
agreements under Rule 11; see PLAINTIFF B.v. FRANCIS, 631 F.3d
1310, 1314 (11th Cir. 2011)

(district court abuses its

discretion "if it fails to actually consider the circumstances of
the case and to weigh the relevant factors and instead follows
a blanket rule in making its final decision").

The Court in

MORGAN found that the "categorical rejection of a sentence
bargain in plea agreements" constituted an abuse of discretion,
and it remanded "to the district court to make an individualized
assessment of the propriety of [the] stipulated sentence, in
light of the factual circumstances specific to this case."
at p. 712.

Id.

6 of 9
An explanation for why the adoption of a blanket policy
results in an abuse of discretion was explained by the court in
UNITED STATES v. MILLER, 722 F.2d 562 (9th Cir. 1983).

The

MILLER decision involved a district court's "general policy not
to accept single count pleas to multiple count indictments."
at 565.

Id.

The court in MIT.T.ER held that such categorical rules

violate the principle that "the existence of discretion requires
its exercise."

Ibid.

The court specified that "[w]hen a court

establishes a broad policy based on events unrelated to the
individual case before it, no discretion has been exercised."
Ibid.

An abuse of discretion along these lines occurred, here,

when the district court denied the jury's readback request.
apparently due to its policy of disallowing them.

The court explanation for denying the readback shows it
was applying a BLANKET POLICY.

The court stated that when it

served in the state court, readbacks were "done... almost
automatically... a court reporter would actually go into the
jury deliberation room and read to the jury whatever was
requested."

ER

145-146.

The court noted that "we did

[readbacks] here for a short time when I came to this court.
BUT MY PRACTICE HAS BEEN THAT I FOLLOW THE INSTRUCTION THAT
WAS GIVEN."

Ibid.

The court's reference to the previous

instruction was to 9th Circuit Model Instruction 1.9, which
the court pre-instructed on, informing the jury that "at the
end of the trial, you will have to make your decision based on
what you recall of the evidence.

You will NOT have a verbatim.

written transcript as it is given."

7 of 9
The court's response to the jury concerning the readback
request shows it was following a BLANKET POLICY,

Referring the

jurors back to its pre-instruction (Module Instruction 1.9), the
court explained to the jurors, "[in my pre-instruction] I urged
you to pay close attention to the testimony as you will not have
a trial transcript for read back at the end of the trial,

So

with respect to the request to have Mr. Mack's testimony read
back to you, that request is denied."

ER 148-149.

Here,

however, the court's explanation to the jury as to why it. would
not get a readback misstated Model Instruction 1.9.

Instruction

1.9 states merely that "you will not have a WRITTEN TRANSCRIPT of
the trial"

—it does not state "you will not have a trial

transcripts for READBACK at the end of the trial."

So not only .

did the court state that it would follow Instruction 1.9, which
it viewed as not providing for readbacks, the court informed the
jury that its decision to deny the readback was in accordance
with its pre-instruction, stating that the jury "will NOT have
a trial transcript for read back at the end of the trial."

The court's response to the jury's read back request was
illogical and implausible, supporting that it was applying a
BLANKET POLICY.
ER 143.

The request was neither broad nor vague.

The jury REQUESTED the testimony of a single, clearly

identified, witness.

The comment that such readback, "would

mean the court reporter would have to delete all the objections,
rulings, and start reading from the beginning of that testimony
until the very end, without allowing anyone to stop or say
we've heard enough..

• t

"

is merely a statement of the readback

{

8~ jo f_ 9 }

'.W-V-----

process, and does not show that the court was basing its decision
on the particular facts and circumstances of the case before it.
As discussed above, the court cannot exercise actual discretion,
deciding whether or not to grant a readback, when it would never
under any circumstances grant one, instead, adopting a blanket
policy that the procedure is "CUMBERSOME."

(ii)

ER 145-146.

The Court's Reasoning on the Unanimity Issue
Heightens the Importance of Paul Mack's Testimony,
and hence the need for a Readback.

The first issue decided in the Memorandum addresses the
failure to give a unanimity instruction.

On this issue, the

Court found that "the evidence at trial showed that only one
of the multiple conspiracies —between Washington, Paul Mack,
Gerard "Nunu" Nelson, and Nunu's girlfriend— involved crack
cocaine."

Memorandum, p.2.

The court reasoned that the district

court did not plainly err because the evidence did not tent to
show multiple conspiracies involving crack cocaine, and hence
there was no genuine possibility of jury confusion or the risk
of a nonuanimous verdict.

Ibid.

The court found that the

special verdict form properly guided the jury to unanimously find
a conspiracy involving crack cocaine.

Ibid.

The Court's reasoning on the unanimity issue means that
Mr. Mack's testimony was extremely important to the case in
that it supported the count one crack cocaine conspiracy,

The

problem with the readback request arises because Mr. Mack's
i

testimony, and hence count one, was the subject of the readback,
making the request an important one.

This problem was recognized

9 of 9
by Judge Collins who, during oral argument, noted that "Mack
is quite central [to Count 1],

So the notion that you can

sustain [Count 1] without regard to him and that [Mack] is
unimportant doesn't seem to fly."
19:18.

Oral Argument at 18:42 -

Therefore, the district court's denial of the readback

request was highly prejudicial as it involved a crucial witness
to the count one crack cocaine conspiracy.

CONCLUSION
WHEREFORE, based on the aforementioned, the Petition for
Writ of Certiorari should be granted.

Respectfully submitted,

Israel Washington (^0 SE)
Reg. No. 70125-097
U.S. Penitentiary
P.0. BOX 1000
Leavenworth, KS 66048

